No.

IN THE SUPREME COURT
OF THE I-]NITED STATES

KORY CHzuSTIAN PEDERSEN,
Petitioner,

v
OREGON BOARD OF PAROLE
AND POST-PRISON SUPERVISION,
Respondent.

MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS
The petitioner, Kory Christian Pedersen, requests leave to frle the attached petition for writ

of certiorari to the United States Court of Appeals for the Ninth Circuit without prepayment of costs
andto proceed informapauperis pursuant to Rule 39.1 of this Court and l8 U.S.C. $3006A(d)(7).
The petitioner was represented by counsel appointed under the Criminal Justice Act in the District
of Oregon and on appeal in the Ninth Circuit Court of Appeals, and therefore no affidavit is required.

RESPECTFULLY SUBMITTED this I st day of Jwe,202l

C. Ren6e Manes
Attorney for Petitioner

